<html>
<title> - PRENATAL NONDISCRIMINATION ACT (PRENDA) OF 2016</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                    PRENATAL NONDISCRIMINATION ACT 
                            (PRENDA) OF 2016

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON THE CONSTITUTION 
                           AND CIVIL JUSTICE

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                                   ON

                               H.R. 4924

                               __________

                             APRIL 14, 2016

                               __________

                           Serial No. 114-70

                               __________

         Printed for the use of the Committee on the Judiciary
         
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]         


      Available via the World Wide Web: http://judiciary.house.gov
      
                                __________
                                
                            
                         U.S. GOVERNMENT PUBLISHING OFFICE
99-783 PDF                     WASHINGTON : 2016                         
                      
________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e087908fa08395939488858c90ce838f8dce">[email&#160;protected]</a>  
                      
                       
                       
                      
                       
                       
                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
LAMAR S. SMITH, Texas                ZOE LOFGREN, California
STEVE CHABOT, Ohio                   SHEILA JACKSON LEE, Texas
DARRELL E. ISSA, California          STEVE COHEN, Tennessee
J. RANDY FORBES, Virginia            HENRY C. ``HANK'' JOHNSON, Jr.,
STEVE KING, Iowa                       Georgia
TRENT FRANKS, Arizona                PEDRO R. PIERLUISI, Puerto Rico
LOUIE GOHMERT, Texas                 JUDY CHU, California
JIM JORDAN, Ohio                     TED DEUTCH, Florida
TED POE, Texas                       LUIS V. GUTIERREZ, Illinois
JASON CHAFFETZ, Utah                 KAREN BASS, California
TOM MARINO, Pennsylvania             CEDRIC RICHMOND, Louisiana
TREY GOWDY, South Carolina           SUZAN DelBENE, Washington
RAUL LABRADOR, Idaho                 HAKEEM JEFFRIES, New York
BLAKE FARENTHOLD, Texas              DAVID N. CICILLINE, Rhode Island
DOUG COLLINS, Georgia                SCOTT PETERS, California
RON DeSANTIS, Florida
MIMI WALTERS, California
KEN BUCK, Colorado
JOHN RATCLIFFE, Texas
DAVE TROTT, Michigan
MIKE BISHOP, Michigan

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel
                                
                                
                                ------                                


           Subcommittee on the Constitution and Civil Justice

                    TRENT FRANKS, Arizona, Chairman

                  RON DeSANTIS, Florida, Vice-Chairman

STEVE KING, Iowa                     STEVE COHEN, Tennessee
LOUIE GOHMERT, Texas                 JERROLD NADLER, New York
JIM JORDAN, Ohio                     TED DEUTCH, Florida

                     Paul B. Taylor, Chief Counsel

                    James J. Park, Minority Counsel
                            
                            
                            
                            C O N T E N T S

                              ----------                              

                             APRIL 14, 2016

                                                                   Page

                           OPENING STATEMENTS

The Honorable Trent Franks, a Representative in Congress from the 
  State of Arizona, and Chairman, Subcommittee on the 
  Constitution and Civil Justice.................................     1
The Honorable Steve Cohen, a Representative in Congress from the 
  State of Tennessee, and Ranking Member, Subcommittee on the 
  Constitution and Civil Justice.................................     2
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Ranking Member, Committee on 
  the Judiciary..................................................    10

                               WITNESSES

Catherine Davis, Founding Core Member, National Black Pro-Life 
  Coalition, and President, The Restoration Project
  Oral Testimony.................................................    21
  Prepared Statement.............................................    23
Anna Higgins, J.D., Associate Scholar, Charlotte Lozier Institute
  Oral Testimony.................................................    29
  Prepared Statement.............................................    31
Miriam Yeung, MPA, Executive Director, The National Asian Pacific 
  American Women's Forum
  Oral Testimony.................................................    41
  Prepared Statement.............................................    43
Derek McCoy, Reverend, National Clergy Relations Director, Center 
  of Urban Renewal and Education
  Oral Testimony.................................................    46
  Prepared Statement.............................................    48

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Material submitted by the Honorable Steve Cohen, a Representative 
  in Congress from the State of Tennessee, and Ranking Member, 
  Subcommittee on the Constitution and Civil Justice.............     5
Material submitted by the Honorable Trent Franks, a 
  Representative in Congress from the State of Arizona, and 
  Chairman, Subcommittee on the Constitution and Civil Justice...    12

                                APPENDIX
               Material Submitted for the Hearing Record

Addendum to the Prepared Statement of Derek McCoy, Reverend, 
  National Clergy Relations Director, Center of Urban Renewal and 
  Education......................................................    66
Question for the Record submitted to Miriam Yeung, MPA, Executive 
  Director, The National Asian Pacific American Women's Forum....    71
Prepared Statement of Steven W. Mosher, President, Population 
  Research Institute.............................................    73
Prepared Statement of the National Asian Pacific American Women's 
  Forum (NAPAWF).................................................    76
                        OFFICIAL HEARING RECORD
          Unprinted Material Submitted for the Hearing Record

Text of H.R. ____, the ``Prenatal Nondiscrimination Act (PRENDA) of 
    2016'' available at:

    http://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=104783

The bill, H.R. 4924, the ``Prenatal Nondiscrimination Act (PRENDA) of 
    2016''

    https://www.congress.gov/114/bills/hr4924/BILLS-114hr4924ih.pdf

Supplemental material submitted by Anna Higgins, J.D., Associate 
    Scholar, Charlotte Lozier Institute

    http://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=104783

Material submitted by the Honorable Judy Chu, a Representative in 
    Congress from the State of California, and Member, Committee on the 
    Judiciary

    http://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=104783

Material submitted by the Honorable Steve Cohen, a Representative in 
    Congress from the State of Tennessee, and Ranking Member, 
    Subcommittee on the Constitution and Civil Justice

    http://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=104783


 
            PRENATAL NONDISCRIMINATION ACT (PRENDA) OF 2016

                              ----------                              


                        THURSDAY, APRIL 14, 2016

                        House of Representatives

                   Subcommittee on the Constitution 
                           and Civil Justice

                       Committee on the Judiciary

                            Washington, DC.

    The Subcommittee met, pursuant to call, at 3 p.m., in room 
2237, Rayburn House Office Building, the Honorable Trent Franks 
(Chairman of the Subcommittee) presiding.
    Present: Representatives Franks, Goodlatte, King, Gohmert, 
Jordan, Cohen, Conyers, Nadler, Deutch, and Chu.
    Staff Present: (Majority) Paul Taylor, Chief Counsel; 
Tricia White, Clerk; (Minority) James Park, Minority Counsel; 
Matthew Morgan, Professional Staff Member; and Veronica Eligan, 
Professional Staff Member.
    Mr. Franks. The Subcommittee on the Constitution and Civil 
Justice will come to order. Without objection the Chair is 
authorized to declare recesses of the Committee at any time. I 
want to thank all of you for being here.
    You know, given the subject of this hearing, it seems 
appropriate to me that we all remind ourselves that the very 
bedrock foundation principle that gave birth to America in the 
first place was the conviction that all human beings are 
children of God and that they are created equal in his sight.
    Throughout America's history we have struggled to fulfill 
that conviction in our national life. It took a Civil War in 
this Nation to make the 7,000-year-old, State-sanctioned 
practice of human slavery to come to an end, and ultimately it 
did so across the world.
    American women overcame the mindless policy that deprived 
them of the right to vote in America. Then this Nation charged 
into Europe and arrested the hellish Nazi holocaust. We crushed 
the Ku Klux Klan and prevailed in the dark days of our own 
civil rights struggle.
    And so, in many ways we have made great progress in the 
area of civil rights in this country. But there is one glaring 
exception: We have overlooked unborn children and that life 
itself is the most foundational civil right of all. The result 
is that today in America between 40 and 50 percent of all 
African-American babies, virtually 1 in 2, are killed before 
they are born, which is a greater cause of death for African-
Americans than heart disease, cancer, diabetes, AIDS, and 
violence combined.
    An Hispanic child is three times more likely to be aborted 
than a White child. A Black child is five times more likely to 
be aborted than a White child. More than 14 million African-
American babies have been aborted since Roe v. Wade. It 
translates to over one-fourth of the African-American 
population in America today. When you add that to the thousands 
of little girls who have been aborted in America simply because 
they are little girls instead of little boys, these are 
travesties that should assault the mind and conscience of every 
American.
    In the course of the Committee's investigation into Planned 
Parenthood, we have discovered that it is training clinic staff 
to answer questions from patients about sex selection and race 
selection abortions. Planned Parenthood physicians are clearly 
being confronted with the issue of whether or not a child can 
knowingly be aborted when the underlying reason is 
discriminatory.
    Currently only eight States prohibit abortions for the 
reason of sex selection at some point during the pregnancy. My 
home State of Arizona also prohibits sex selection and race-
based abortions.
    Now, the subject of the hearing today, the Prenatal 
Nondiscrimination Act, restricts sex selection abortion and 
race selection abortion, and the coercion of a women to obtain 
either. The bill holds abortionists who prey on women 
accountable for their actions while holding the women on whom 
the abortion is performed harmless under the law.
    Now, there will be those who will say that this bill has a 
much larger agenda; and let me respond simply by saying that I 
sincerely and passionately hope that they are right. I truly 
hope that the debate and passage of this bill will call all 
Americans in and outside of Congress to an inward and heartfelt 
reflection upon the humanity of unborn children and the 
inhumanity of what is being done to them in 2016 in the land of 
the free and the home of the brave.
    Across human history the greatest voices among us have 
always emphasized the critical responsibility of each of us to 
recognize and cherish the divine light of eternity shining in 
the soul of every last one of our fellow human beings.
    In 1847, Frederick Douglass said, ``Right is of no sex, 
truth is of no color, God is the father of us all and all our 
brethren.'' In Matthew 25, Jesus said, ``Inasmuch as you have 
done and one of the least of these my brethren and you have 
done it under me.'' Thomas Jefferson said, ``The care of human 
life and its happiness and not its destruction is the chief and 
only object of good government.''
    Ladies and gentlemen, I know that when the subject is 
related in any way to abortion, the doors of reason and human 
compassion in our minds and hearts often close, and the 
humanity of the unborn can oftentimes no longer be seen. But 
this is the civil rights struggle that will define our 
generation. And I hope this hearing today will begin to open 
our hearts and minds again.
    And with that, I would now yield to the Ranking Member for 
his opening statement.
    Mr. Cohen. Thank you, Mr. Chair. I know that you are 
sincere about your beliefs and I know that reasonable people 
can differ and we do, but I know that you are sincere and this 
is a heartfelt position for you. Nevertheless, I am disturbed 
that we have this hearing today. And I am disturbed because of 
the fact that first I do believe--and you mentioned in your 
opening statement that somebody would mention this, and yes, I 
am going to mention it--that this is really an assault on the 
woman's right to choose and not simply anything to do with sex 
and race.
    And I am also concerned that this bill at one time was--no 
longer is, but one time had the name of Frederick Douglass in 
it and I think it besmirched the name of Frederick Douglass, 
who is one of the greatest Americans of all time. And that 
bothered me the last time we had this up and I opposed it.
    And in your opening statement you were right that our 
Declaration of Independence, our Constitution, wonderful 
documents and said something in there about all men are created 
equal, they had inalienable rights, et cetera, but that was 
words on paper because we had slaves; and it did not end with 
the Civil War. It went on in the South at least until the 
1960's and the Voting Rights Act, the Civil Rights Act, Brown 
v. Board of Education.
    And it did not end there because in the South where I am 
from, which was the focus of the Voting Rights Act for good 
reason, people do not let--old times there are not forgotten 
and rarely given up. And segregation and racial injustice 
carried on into the 1970's and the 1980's and they carry on 
today. And we do not have Governors in the South now with 
interposition dripping off their lips standing in the 
schoolhouse door.
    But what we have got is Governors and legislators, not just 
in the South and as the Supreme Court did get it correct to 
some extent in the Voting Rights Act when they said it is not 
just a problem in those select States in the South, it is a 
problem all over the country and that they should not be 
specifically limited in the South, well, I do not know that 
they should have just been limited.
    The South is the worst at doing this and there may be 
problems in other parts in the country, indeed there are, with 
racial gerrymandering and impediments to people voting, but the 
South does it best. It is one of the South's deals: We have got 
barbeque, we have got good football, and we do the best job if 
you want to really thwart a person's opportunity to vote, the 
South does it.
    And so there should have been special circumstances there. 
But unfortunately it is a national problem, but the South is 
kind of the leader there. So all attempts to stop people from 
voting, which our Judiciary Committee has not taken up voting 
rights, that is where we should be looking at. We can give 
people an opportunity to vote. And if we can do things to give 
people opportunities to have a good living, have women have 
equal pay and to get jobs and get proper education, and poor 
people get education and be able to afford and well take care 
of children, you would cut down the rate of abortion in the 
African-American community.
    You are not going to do it with some bill like this. You 
are going to do it by giving African-American women better job 
opportunities and better pay and look out for them in every way 
possible so they can have a child and know they can afford it 
and that child will be brought into a house and a home with a 
mother that can take care of them.
    Those are the issues we have got to be dealing with. And I 
know that these issues--the Chairman and the members of his 
party are aware of them, but they are not bringing bills to 
deal with them. We are saying if you have a job now you are 
losing your SNAP payments. But just because you have got a job 
does not mean you do not need assistance and that you and your 
family do not need some help.
    So this bill, which is opposed by about every group that 
cares about women's choice and constitutional rights of a 
woman, is here like other bills we have had to really be an 
assault on Roe v. Wade. We have got an entire Committee set up 
to be an assault on Roe v. Wade. And yet we have got folks that 
need job training and monies for education. And we have got 
voting rights issues and we got healthcare issues. And we are 
not dealing with those things. We are not dealing with what 
causes the problem. And we really need--we are kind of picking 
these issues.
    And I understand the Chairman. The Chairman is very, very 
strong on this issue and he has got a heartfelt belief that 
really--I may be wrong, if I am wrong I do not mean it in an 
adverse way upon you--but I do not think you want abortion to 
be legal under any circumstances. And I understand your 
position, but I think women have a right to choose. I think Roe 
v. Wade was right. And I do not think we should be spending 
time on these type of issues, attack Roe v. Wade and women's 
choice; and we should be dealing with voting rights and human 
rights and civil rights, and not under the guise of using those 
issues to frame a bill and a conversation that intends to 
overrule Roe v. Wade.
    So I would like to introduce for the record a statement 
from the Black Women Reproductive Justice Organizations, they 
oppose this bill; and also one from the physicians, the 
American College of Obstetricians and Gynecologists. And 
without objection I would ask they be made part of the record.
    Mr. Franks. Without objection.
    [The information referred to follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                   
                     __________
                               
    Mr. Cohen. I yield back the balance of my time.
    Mr. Franks. And I thank the gentleman and I would now yield 
to the Ranking Member of the full Committee, Mr. Conyers of 
Michigan.
    Mr. Conyers. Thank you, Chairman Franks. I am very 
delighted to be here with you and my good friend, Ranking 
Subcommittee Member Cohen and the highly-esteemed Judy Chu. To 
my friends here and our guests that are witnesses and our 
friends in the audience, this Prenatal Nondiscrimination Act is 
the latest attempt to erode the constitutional right to an 
abortion guaranteed by Roe v. Wade for over 40 years. Among 
other things, the bill would make it a crime for a doctor to 
perform an abortion if he or she knows that the procedure is 
being done because of the race or sex of the fetus or the race 
of one of the parents regardless of viability.
    As I noted in an earlier Congress, the 112th, when we last 
considered this bill, it is flawed and patently 
unconstitutional because it bans certain pre-viable abortions. 
The Roe case already mentioned is clear that a woman has an 
absolutely constitutional right to have an abortion prior to 
fetal viability. And this legislation is another deliberate 
attempt by anti-choice activists to undermine and ultimately 
overturn Roe.
    In addition, this measure has nothing to do with civil 
rights. For instance, the bill proponents offer no evidence 
that women are choosing race-selective abortions. Indeed, these 
proponents do not even bother to make the claim that African-
American women, for example, choose to abort their fetuses 
because the fetus or one of the parents is African-American. 
They do not make this argument because it is absurd on its 
face. And yet that is exactly the type of conduct that the bill 
supposedly prohibits.
    The bill's proponents try to sidestep this obvious flaw by 
arguing instead that the bill is needed because abortions are 
disproportionately common in communities of color. But to the 
extent abortions are performed disproportionately in minority 
communities, the disparity points to broader socio-economic 
inequalities that banning abortion will not solve.
    The African-American and Hispanic communities are 
underserved when it comes to prenatal, maternal, and child 
healthcare services. This lack of access to reproductive 
healthcare results in African-American women being three to 
four times more likely to die from pregnancy-related causes 
than White women. And barriers to effective contraceptives and 
effective sex education, among other things, leads to the 
unintended pregnancy rate for African-American women being 67 
percent versus 40 percent for White women. Minority communities 
lack access to adequate health care.
    Yet rather than addressing these disparities, the bill only 
reinforces them through its criminal penalties, which will 
create a chilling effect on doctors serving these communities.
    So finally I reject in the strongest possible terms the 
slander that Planned Parenthood and other abortion providers 
are inherently racist. Planned Parenthood is a leading provider 
of high quality health care for women serving 2.7 million 
Americans a year. It provides many critical health services, 
such as annual wellness claims, cancer screenings, 
contraception, and the study of sexually transmitted diseases.
    My hero in all of this and many other issues, Dr. Martin 
Luther King, Jr., strongly supported the work of Margaret 
Sanger, Planned Parenthood's founder, and emphasized the 
importance of access to family planning resources for African-
Americans.
    On accepting the Margaret Sanger Award from Planned 
Parenthood in 1966, Dr. King stated, and I quote, and as I 
conclude, ``There is a striking kinship between our movement 
and Margaret Sanger's early efforts. She, like we, saw the 
horrifying conditions of ghetto life. Like we, she knew that 
all of society is poisoned by cancerous slums. Like we, she was 
a direct actionist, a non-violent resister. African-Americans 
have no mere academic nor ordinary interest in family planning. 
They have a special and urgent concern.''
    My friends, I concur with Dr. King and reject the sponsor's 
preposterous and offensive argument that legalized abortion and 
its providers are racist.
    And I thank you for this opportunity, Mr. Chairman, and I 
am concluded at this point.
    Mr. Franks. And I thank the gentleman. And without 
objection, the other Members' opening statements will be made 
part of the record.
    And before I introduce the witnesses, it looks like they 
have called votes on us and I cannot imagine that the 
leadership would dare call a vote without checking with us 
first, but that is what they have done. So we will be breaking 
momentarily, but before we break I would first like to ask for 
unanimous consent to submit three items for the record.
    The first is a statement prepared by Alveda King, who 
currently serves as pastoral associate and director of Civil 
Rights for the Unborn and for Priests for Life. She is also the 
daughter of Reverend A.D. King and the niece of Dr. Martin 
Luther King. She has also submitted to this Committee a blog 
post she posted on February 3, 2014, and I am grateful for her 
post and for her contribution.
    Last, I would like to submit for the record a statement 
prepared by Reggie Littlejohn on sex selection abortion 
occurring in the United States and abroad and without objection 
it would be entered into the record.
    [The information referred to follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                        
                     __________
    
    
    Mr. Franks. And at this time, then, I will adjourn the 
Committee and we will come back and we will introduce all of 
you and proceed with testimony. I am sorry the vote is going be 
a little bit long, but we will get back as soon as we can. 
Thank you all, and we are in recess.
    [Recess]
    Mr. Franks. This meeting will come to order. Thank you all 
for waiting so patiently. And we will now introduce our 
witnesses.
    And our first witness is Catherine Davis. Ms. Davis is a 
founding member of the National Black Pro-Life Coalition, and 
founder and president of the Restoration Project. She often 
partners with the National Black Pro-Life Coalition, the 
Network of Politically Active Christians, and the Frederick 
Douglas Foundation, in an ongoing effort to educate Americans 
about the issues that are impacting the Black community.
    Our second witness is Anna Higgins. Ms. Higgins is an 
attorney and associate scholar at the Charlotte Lozier 
Institute, a research and education institution dedicated to 
bringing together physicians, sociologists, statisticians, and 
policy researchers on a wide range of life issues. She has 
previously held the position of director of the Center for 
Human Dignity at the Family Research Council.
    Our third witness is Miriam Yeung. Ms. Yeung is the 
executive director of the National Asian Pacific American 
Women's Forum, a multi-issue progressive organization dedicated 
to social justice and human rights for Asian, and Pacific 
Islander women and girls in the U.S.
    The current priorities include winning rights for immigrant 
women, organizing nail salon workers for safer working 
conditions, conducting community based participatory research 
with young API women, and ending human trafficking.
    Our fourth and final witness is Reverend Derek McCoy. 
Reverend McCoy is the National Clergy Relations Director for 
the Center of Urban Renewal and Education, a non-profit think 
tank dedicated to addressing the issues of race and poverty 
through the principals of faith, freedom, and personal 
responsibility. He previously served as the president of the 
Maryland Family Alliance, and Maryland Family Council. I just 
want to welcome all of you. Thank you for being here.
    Now, each of the witnesses written statements will be 
entered into the record in its entirety. And I would ask that 
each of you summarize your testimony in 5 minutes or less. To 
help you stay within that time there is a timing light in front 
of you. The light will switch from green to yellow, indicating 
that you have 1 minute to conclude your testimony. When the 
light turns red it indicates that the witness' 5 minutes have 
expired.
    And before I recognize the witness, it is the tradition of 
the Subcommittee that they be sworn. So, if you please stand to 
be sworn.
    Do you solemnly swear that the testimony that you are about 
to give will be the truth, the whole truth, and nothing but the 
truth, so help you god? Please be seated.
    Let the record reflect that the witnesses answered in the 
affirmative. And I would now recognize our first witness, Ms. 
Davis. And, Ms. Davis, if you pull that microphone to you and 
turn it on before beginning.
    Ms. Davis. Thank you, Congressman.
    Mr. Franks. Thank you for being here.

 TESTIMONY OF CATHERINE DAVIS, FOUNDING CORE MEMBER, NATIONAL 
   BLACK PRO-LIFE COALITION, AND PRESIDENT, THE RESTORATION 
                            PROJECT

    Ms. Davis. Thank you so much for allowing me to come and 
address this issue, which is at the core of the reason for why 
the National Black Pro-Life Coalition exists. There are some in 
America today who want us to ignore the motives of 
organizations that have been targeting women of color, but we 
cannot. Race became an issue in the reproductive healthcare 
debate with the introduction of Margaret Sanger and Clarence 
Gamble's Negro Project in 1939 that sought to bring about a 
major birthrate reduction among American Negroes.
    The Planned Parenthood Federation of America has never 
renounced this project, and we believe it is in operation 
today. In fact, Alan Guttmacher, the president of Planned 
Parenthood from 1962 to 1974 was a eugenicist. And, for a time, 
his presidency at Planned Parenthood overlapped his vice-
presidency at the American Eugenics Society that championed 
racial betterment, eugenic health, and genetic education.
    It was with this ideology that he guided the organization 
into the era of abortion on demand. In the Roe v. Wade 
decision, Mr. Justice Blackman said, ``In addition, population 
growth, pollution, poverty, and racial overtones tend to 
complicate and not to simplify the problem.'' Without 
explanation for why the court felt it important to mention this 
in the opinion, it was this statement that introduced race and 
population control into abortion practices.
    Supreme Court Justice Ruth Bader Ginsburg's 2009 New York 
Times magazine interview seemed to confirm race was an issue, 
when she said, ``She had thought that at the time Roe v. Wade 
was decided there was concern about population growth and 
particularly growth in populations we do not want too many 
of.''
    No one doubted that the population they did not want too 
many of were the Negroes in Planned Parenthood's Negro Project. 
The march toward controlling the Black birth rate through 
abortion has accelerated, and larger and larger surgical 
abortion facilities are being erected in densely populated 
Black and Latino neighborhoods. A 2012 study completed by 
Protecting Black Life of Cincinnati, Ohio revealed that more 
than 79 percent of Planned Parenthood's surgical centers are 
located within a two-mile walking radius of a Black or Latino 
neighborhood.
    In their 2008/2009 tax filing, Planned Parenthood 
acknowledged their mission is to achieve a United States 
population of stable size. One example of the tools that they 
use to achieve that goal is found in the certificate of public 
need submitted to the Virginia Department of Health in 2012. 
Planned Parenthood of Virginia Beach cited Black infant and 
maternal mortality rates to justify the construction of a third 
surgical room where they could terminate up to 1,800 babies 
each year.
    In hearings for a PRENDA-like bill in Georgia in 2010, a 
young White female testified that she had gotten pregnant at 
age 14 by a Black male. Her mother forced her to abort the 
child, stating that she could not bring that little Black so-
and-so into her home. Despite telling every worker in the 
Augusta, Georgia Planned Parenthood, including the doctor, that 
she wanted her child they aborted her baby.
    Margo Davidson, a Black Pennsylvania Democrat, was endorsed 
by Planned Parenthood in her 2010 race for the State House. Ms. 
Davidson's cousin, Semika Shaw, was 5 months pregnant, and she 
died after a botched abortion in Gosnell's center. When 
Davidson chose to vote to close the regulatory loophole, 
Planned Parenthood withdrew their support and fielded a 
candidate to run against her.
    In 2012, an abortion doctor in Charlotte, North Carolina 
publically stated his motive for doing abortions was ``to keep 
ugly Black babies from being born, and a burden to taxpayers.''
    We are asking that the Congress take action to provide 
relief through enacting PRENDA. Thank you so much.
    [The prepared statement of Ms. Davis follows:]
     Prepared Statement of Catherine Davis, Founding Core Member, 
   National Black Profile Coalition, and President, The Restoration 
                                Project

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                         __________

    Mr. Franks. Thank you Ms. Davis. I now recognize our second 
witness, Ms. Higgins. And, Ms. Higgins, if you will pull that 
microphone toward you and make sure that it is on.

 TESTIMONY OF ANNA HIGGINS, J.D., ASSOCIATE SCHOLAR, CHARLOTTE 
                        LOZIER INSTITUTE

    Ms. Higgins. All right. Here we go. Mr. Chairman Franks, 
Ranking Member Cohen, and distinguished Members of the 
Subcommittee, I am grateful to have asked by the Subcommittee 
to testify today in support of the Prenatal Nondiscrimination 
Act of 2016, or H.R. 4924.
    Passing this bill is a necessary and proactive step in the 
fight to end gender inequality domestically and abroad. Many 
people in the United States assume that sex discrimination has 
been all but eliminated here. Yet, a violent form of sex 
discrimination in the form of sex selective abortion, practiced 
on girls in particular, is still permitted within our boarders.
    Sex selective abortion is choosing to abort a preborn child 
based solely on that child's sex. Any discrimination against a 
unique human individual based on sex alone constitutes sex 
discrimination, and it cannot stand. Congress has the 
opportunity here, through the passage of the Prenatal 
Nondiscrimination Act to prohibit the discriminatory practice 
of sex selective abortion, thereby confirming the fact that 
women have the same inherent civil and human rights as men.
    I intend to testify to the existence of sex discrimination 
through sex selective abortion, the seriousness of it, and the 
justifications in enacting this bill. My comments are condensed 
from my extensive research paper just published by Charlotte 
Lozier Institute this week. The findings on sex selective 
abortion in this bill are quite extensive, and I think they 
highlight the prevalence of the problem here in the United 
States, and the problem globally of sex discrimination against 
girls via abortion.
    Ban on sex selective abortion to protect girls, in 
particular from the practice of gendercide. We know that 
studies show that at conception and at birth the ratio of males 
to females, naturally, biologically, is about equal.
    Additionally, there is little to no variation in sex ratios 
in relation to maternal race or age. So, any kind of skewed sex 
ratio at birth cannot be explained away by natural variations. 
There are well documented practices of infanticide and sex 
selective abortion of female children, and that has resulted in 
upwards of 160 million missing girls across the globe.
    So, what we are saying here is it is affecting the human 
society in general. Sex selection in favor of males is known to 
be a problem in certain cultures based on the idea of son 
preference, but the practice of son preference is not limited 
to certain cultures or countries. In fact, European countries 
have numbers similar to that skewed numbers of China and India, 
particularly the Caucasus.
    Opponents of these bans will claim that this precaution is 
not needed, because the ratio is balanced in the United States 
overall. That balanced ratio belies the fact that Western 
nations such as the U.K. and the U.S. have seen a spike in sex 
ratio imbalance within certain subpopulations inside our own 
borders. Studies have shown that. And another two studies out 
of Canada came out this week confirming those very numbers in 
extreme sex imbalance ratios.
    Additionally, we have a lot of commercial advertisements. I 
saw three websites this week that advertise in the United 
States finding out the gender of your child as early as 10 
weeks gestation for the purpose of family balancing. There's no 
way to family balance past pregnancy without sex selective 
abortion.
    The abysmal state of abortion reporting data does not allow 
us, in the United States, to have exact numbers. But the 
question before us is not, ``What are the exact numbers?'' The 
question before us is whether any abortion done for reasons of 
sex selection is permissible in light of our tradition, and 
laws protecting persons from discrimination based on sex alone.
    The American public overwhelmingly supports bans on sex 
selective abortion, because they understand this violates 
American tradition of holding up the idea that women and men 
are equal under the law, and should be thusly protected. Sex 
discrimination through sex selective abortion is a violent form 
of sex discrimination, and needs to be eliminated, not just 
globally, but also here in the United States.
    We have seen Congress say that this is not permissible 
practice overseas. We have seen Secretary of State Clinton, the 
United Nations, all come out against sex selective abortion. 
But, if we do not address this here, we have no right to 
address it elsewhere. So, we must accept that this occurs 
globally. And Congress can take their first step in eliminating 
the reprehensive practice of discriminating against women by 
banning sex selective abortion here in the United States, and 
thereby retain its moral authority to say, ``This should not 
happen anywhere.'' Thank you.
    [The prepared statement of Ms. Higgins follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
          
                       __________
    
    Mr. Franks. Thank you, Ms. Higgins. And we now recognize 
Ms. Yeung.

    TESTIMONY OF MIRIAM YEUNG, MPA, EXECUTIVE DIRECTOR, THE 
         NATIONAL ASIAN PACIFIC AMERICAN WOMEN'S FORUM

    Ms. Yeung. Thank you for allowing me to testify before you 
today. I lead the National Asian Pacific American Women's 
Forum, the country's only multi-issue organization dedicated to 
building a movement for social justice and human rights for 
Asian American and Pacific Islander women and girls in the 
United States. On behalf of NAPAWF and the dozens of women's 
rights reproductive justice and civil rights groups that stand 
with me, I strongly urge the Members of this Congress to oppose 
the Prenatal Nondiscrimination Act of 2016.
    This bill represents a duplicitous attempt to address 
racial and gender discrimination, while actually intending to 
chip away at abortion rights. Not only does this legislation 
call into question a woman's motives for seeking abortion care, 
it is especially punishing in the precedent it would set, 
forcing doctors to scrutinize a woman because of her race or 
ethnicity. The decision to seek abortion care should be up to a 
woman with her doctor and her family, not politicians. The 
majority of Americans support this value, and believe that a 
woman knows what is best for her and her family.
    In a 2015 poll by Hart Research Associates, 65 percent 
Americans say that Congress should not be spending time 
debating and passing a sex selective abortion ban. I encourage 
Members of the Subcommittee to support racial equality in a 
real way, by addressing healthcare disparities in communities 
of color, and protecting the sanctity of the doctor/patient 
relationship by supporting open, honest communication with 
one's medical provider.
    This bill forces doctors to act as police interrogators in 
the exam room, ultimately making women more reluctant to share 
their personal experiences for fear of their private 
information being made public. When medically accurate, safe, 
and nonjudgmental patient counseling is taken away, women, 
especially those most vulnerable to domestic violence or 
trafficking, lose the chance to get the help she needs.
    This bill perpetuates the offensive stereotype that Black 
women are unable to make reproductive health decisions for 
their own families. It accuses Black women of being 
irresponsible and worse, intentionally deselecting babies who 
share their own race. Black women choose abortion care more 
often than other communities do because of a well-documented, 
disproportionate lack of access to contraception. This 
legislation does nothing to address the root causes of 
unintended pregnancies or historically rooted inequalities 
within these communities.
    In February of 2016, Black women leaders came together in 
solidarity to affirm Black women's autonomy, and reject 
legislation like PRENDA that relies on racist claims about 
Black mothers. In their own words, Monica Raye Simpson, 
director of the Trust Black Women Partnership said, ``Bans on 
abortion based on race rely on anti-Black and anti-immigrant 
stereotypes about women of color, and constitutes a direct 
assault on Black motherhood.
    We must remember that this legislation has its origins in 
the billboards put up here in Atlanta and around the country 
attacking Black mothers and stigmatizing our decisions about 
pregnancy, billboards we fought and successfully saw removed.'' 
Alicia Garza, cofounder of Black Lives Matter said, ``We 
absolutely have to make sure that reproductive justice, and 
reproductive freedom is part of the narrative of what it takes 
to make Black lives matter.''
    Women of color already face difficulties accessing health 
care and have poorer health outcomes. Black women are more 
likely to die from preventable pregnancy related causes than 
White women, and their unintended pregnancy rate is higher than 
any other ethnic or racial group. Vietnamese women are five 
times more likely to die from cervical cancer than White women. 
High levels of poverty already prevent Asian American women and 
other women of color from accessing health care every day. 
Unfortunately, PRENDA would make healthcare outcomes for women 
of color even worse.
    This legislation also perpetuates the offensive stereotype 
that Asian American families do not value the lives of their 
girl children, while also not addressing the issue of sex 
selection by ignoring substantive policy to alleviate the root 
causes of son preference or gender inequity. While sex 
selection is an issue abroad, the U.S. is not China or India. 
In the U.S. researchers have found that there is not a 
widespread issue and, in fact, Asian Americans are actually 
having more girls on average than White Americans are.
    Gender inequity cannot be solved by banning abortion. An 
interagency U.N. statement addressing sex selection and gender 
discrimination clearly explains that countries, ``Have an 
obligation to ensure that these injustices,'' meaning son 
preference, ``are addressed without exposing women to the risk 
of death or serious injury by denying them access to needed 
services, such as safe abortion.'' Aruna Papp, the Canadian 
advocate, cited in the findings, concurs with this opinion, and 
has submitted written testimony opposed to PRENDA for the harm 
it will do to women.
    Asian American and Pacific Islander women know that gender 
inequities do exist and are working in culturally competent 
ways to provide long-term, sustainable solutions. NAPAWF and 
others are working with members of our own community to empower 
women and girls, thereby challenging norms and transforming 
values. We cannot help women by taking away women's rights. We 
cannot eliminate racism by relying on racist assumptions.
    I welcome all Members of Congress to pass legislation that 
truly results in racial justice and gender equality. Thank you.
    [The prepared statement of Ms. Yeung follows:]
               Prepared Statement of Miriam Yeung, MPA, 
         National Asian Pacific American Women's Forum (NAPAWF)

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                         __________

    Mr. Franks. Thank you Ms. Yeung. And I would now--Reverend 
McCoy please.
    Rev. McCoy. Thank you.
    Mr. Franks. Let's pull that microphone up close to you, 
sir, and make sure it is on.
    Rev. McCoy. It is on. Thank you.
    Mr. Franks. Okay, sir. Thank you.

 TESTIMONY OF DEREK McCOY, REVEREND. NATIONAL CLERGY RELATIONS 
        DIRECTOR, CENTER OF URBAN RENEWAL AND EDUCATION

    Rev. McCoy. Chairman Franks, Ranking Member Cohen, and 
distinguished Members of the Subcommittee, thank you for 
allowing me to testify today. I serve as the national director 
of CURE. But, really, we represent over 1,000 voices across the 
country. Our work is to fight poverty and be voices of the 
underserved by helping them apply principals of faith, freedom, 
and personal responsibility. I also serve on two boards that 
support pregnancy centers as well.
    I come today to offer my strong support and endorsement for 
H.R. 4924, the Prenatal Nondiscrimination Act. Like many 
liberals in the Black community, I too believe that Black lives 
do matter. But, I think that the passage of H.R. 4924 would 
codify this notion into law by not forcing and allowing for 
race selective abortions. As tragic as all the violent deaths 
are within the Black community and cities like Chicago, 
Baltimore, D.C., they pale in comparison to the murders that 
are taking place within the wombs of Black women every day 
throughout our Nation.
    The rise of feticide in the world is astronomical. On the 
global front, we are virtually watching and observing entire 
countries alter birth rates and normal balance of population 
and gender due to sex selective abortions. My support for this 
legislation is not only based on my deep personal thankfulness 
for being born to a Black woman, or my conviction as an African 
American male that deplores discrimination, or as a citizen of 
the country that does not want to see sex discrimination, but a 
citizen who deeply desires the same protections be afforded to 
them by the Constitution be given to all including the preborn.
    My support also comes as a father, and a man who sees the 
destruction of lives and have heard from and counseled the 
women who had to deal with the emotional and physical 
consequences of having lived with the gut-wrenching termination 
of a pregnancy. Creating a life is an ultimate gift from god. 
What we do with that life is our gift back to god.
    The passage of H.R. 4924 would help ensure that we do not 
run short of the gifts that we give back to god. As stated 
years ago by the, then pro-life, Reverend Jesse Jackson in 
January 1977, ``Politicians argue for abortion largely because 
they do not want to spend the necessary money to feed, clothe, 
or educate more people. Here arguments for inconvenience and 
economic savings take precedence over for human value and human 
life.
    Psychiatrists, social workers, and doctors often argue for 
abortion on the basis that the child will grow up mentally and 
emotionally scarred. But who of us is complete?'' he asked. 
``If incompleteness were the criterion for taking on life, 
would we all be dead? If we can justify abortion on the basis 
of emotional incompleteness, then your logic could also lead 
you to killing others for other forms of incompleteness as 
well, such as blindness, crippledness, or old age.'' And I 
would add to that, race and/or gender.
    Abortion based on sex selection, race selection, or gender 
selection is antithetical to our civilized society. If it is 
illegal to murder based on sex, race, or gender, would it not 
be equally illegal to murder a child in the womb based on these 
same characteristics? So, this issue of nondiscrimination 
brings us back to even what my colleague Ms. Davis said about 
eugenics.
    Ultimately, a Nation will be judged on how they protect the 
most vulnerable in their society. My job here today is simple, 
to be a voice to the thousands of Americans that want to see 
the Constitution applied to the least of these in our society. 
When one thinks about aborting a child based on race, sex, or 
gender, many of us reel with disgust because we have seen the 
effects of such actions in countries like China and other parts 
of the world where they have a shortage of females; that has 
become a national security issue. China does not even have 
enough females for males to marry. So, Chinese males are 
leaving the country, causing a labor shortage, but also causing 
a national identity problem.
    When I think about selective abortions, I cannot help but 
be reminded about eugenics, and the Black community has been 
one of the most hard hit for the plight of abortions in our 
communities. About 50 years ago a sociologist, who was also the 
Secretary of Labor, named Daniel Patrick Moynihan, stated that 
these trends in the Black community began to change. The Black 
family at that time had intact families with 78 percent of 
households having a mom and a dad.
    Abortion in our community was not common, and was 
unthinkable. However, the astute eye of Moynihan saw the 
scrubbing of our society by god by eliminating prayer in 
schools in 1963, had started to take effects on the collapse of 
the family. Marriages began breaking down. And by 1965 we had 
an all-out war on poverty and began the welfare state.
    In the 1960's we allowed unchecked sexual freedom to get 
out of control, and women's rights group like NOW began 
influencing NAACP to push for abortions in Black communities 
under the guise of reducing poverty and the population. Blacks 
were told, if we were controlled births, we would also escape 
poverty. Black women were seduced into this lie and are now 
living with the results of 16 million killed since Roe v. Wade, 
which took place in 1973, a mere 5 years after King's death.
    It is ironic that the Fifth Amendment in 1870 to the U.S. 
Constitution abolished discrimination based on race. A more 
civilized 1973 U.S. Supreme Court discriminated against the 
life of the unborn. In closing, I would like to invite each 
Member to support this legislation. Think long and hard about 
the America we want to pass along to the next generation a 
social experiment of genetic engineering at the hands of those 
who choose who wins and who loses in life. Come to my city. 
Meet some of the women who have indeed had counseling after 
having an abortion. I invite you. Thank you for your time.
    [The prepared statement of Rev. McCoy follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
                      __________
   
   Mr. Franks. Well, thank you, Reverend McCoy. We will now 
proceed under the 5 minute rule with questions. And I will 
begin by recognizing myself for 5 minutes.
    Ms. Davis, I will begin with you, if it is all right. Now, 
there are critics who say that PRENDA has a much larger agenda. 
In fact, I think in Ms. Yeung's testimony she states that 
``this bill represents a duplicitous attempt to address racial 
and gender discrimination.''
    The challenge I have with that is that somehow protecting 
an unborn child from being aborted on the basis of race, that 
is racism. But taking the life of an unborn child on the basis 
of race is not racism. And protecting a little girl from being 
aborted because she is a little girl rather than a little boy, 
that is gender discrimination; but taking the life of a little 
girl because she is a little girl instead of a little boy, that 
is not gender discrimination.
    And that is hard for me to understand. Is your testimony 
intended to be a duplicitous attempt to address racial and 
gender discrimination? Is that your testimony?
    Ms. Davis. There is no duplicity here. And, in all honesty, 
Congressman, I am, along with the National Black Pro-Life 
Coalition, working to end the targeting of the Black community. 
It is an all-out war. It truly is, because we are being 
targeted. And Planned Parenthood is behind that targeting. Here 
in Congress, in 2012, the Black Congressional Caucus, the women 
of the Black Congressional Caucus, and the Pro-Life Caucus 
hosted an event that was funded by the Ford Foundation, on 
whose board Cecile Richards, the president of Planned 
Parenthood, sits. And, in that forum, they were training 
people, the attendees, on how to get around the message that 
the billboards that went up in 2010 in Georgia, which I was a 
part of that initiative: how to get around that message.
    And they gave them five particular points that included 
changing the conversation and challenging the pro-life 
community on why they are trying to make the disparities in 
health care worse. They told them to change the conversation 
and talk about access to health care, that Black women lack 
access to health care.
    Well, number one, abortion is not health care. And abortion 
all across this country is maiming and wounding women, and 
actually killing them like Tonya Reaves who was killed in a 
Planned Parenthood at 18 South Michigan Avenue in Chicago, when 
they botched the abortion and left her laying there for more 
than 5 hours bleeding before they sought emergency help too 
little too late.
    So, the racial component that PRENDA would provide would 
have allowed the family of Tonya Reaves, the dad of the baby, 
and grandparents to pursue Planned Parenthood who was operating 
their Negro Project when they killed Tonya's 5-month-old baby 
and Tonya.
    Mr. Franks. Thank you, ma'am. Ms. Higgins, I am about out 
of time here, but in light of the Supreme Court's decision and 
reasoning in Gonzales v. Carhart, they talked about protecting 
the health of the mother, and also the government interest in 
protecting the reputation in the medical community, preserving 
the integrity and ethics of the medical profession, and 
promoting societal respect for unborn life. What arguments do 
you believe could be made in favor of PRENDA, prohibition of 
both discriminatory abortions and coerced abortions based on 
that decision?
    Ms. Higgins. Based on Gonzales v. Carhart, you are correct, 
Mr. Chairman, in saying that this was a ban on a partial birth 
abortion. So, that is one practice of abortion. Okay. So, what 
we are looking at here is a ban on a single reason for an 
elective abortion that is a single discriminatory reason.
    So, what the courts did here in Gonzales is they upheld 
that prohibition, whether it was pre-viability or post-
viability, it did not matter. And the health exception of the 
mother was not included, because they said, ``There is an 
alternative.'' There is an alternative to this partial birth 
abortion, so there is no reason the State cannot prohibit this 
one practice.
    So, this is analogous in that all you are doing is 
prohibiting one reason, or availability of obtaining an 
elective abortion that does not implicate the health of the 
mother. So, it does not present an undue burden standard under 
Planned Parenthood v. Casey, which is where we look to our 
abortion jurisprudence standard. And they also said that the 
State have an interest in regulating abortion if they are 
instituting a mechanism that shows a profound respect for life, 
which this bill does.
    Mr. Franks. Thank you, Ms. Higgins. I thank all of you. And 
I will now recognize Mr. Deutch for 5 minutes.
    Mr. Deutch. Thank you, Mr. Chairman. Before I begin I would 
like to yield 45 seconds to the gentlelady from California, Ms. 
Chu.
    Ms. Chu. Thank you Congressman Deutch for yielding. I want 
to thank Miriam Yeung for testifying today, and her leadership 
on issues affecting the Asian American and Pacific Islander or 
AAPI community.
    As chair of the Congressional Asian Pacific Caucus, and as 
an Asian American woman, I am extremely disappointed and deeply 
disturbed to see that PRENDA is once again before this 
Subcommittee. And I will continue to voice my strong opposition 
to the racist and sexist nature of this bill. I request that my 
full written statement be entered into the record.
    Mr. Franks. Without objection.
    Ms. Chu. And I also request that three documents be entered 
into the record. The first is a letter from leading 
reproductive justice organizations in the U.S., which 
represents the very women of color this bill claims to protect, 
unequivocally condemning this legislation.
    The second is a letter from the AAPI reproductive justice 
community, and expresses deep concerns about the dangerous 
stereotypes that the bill perpetuates about the AAPI community, 
which could lead to the racial profiling of AAPI women.
    Finally, the third is a letter from Aruna Papp, whose 
testimony is included in the text of PRENDA, and who states 
that her research has been fundamentally misrepresented and 
misconstrued, and that PRENDA would only further harm women who 
are victims of domestic violence. Thank you. And I yield back.*
---------------------------------------------------------------------------
    *Note: The material submitted by Ms. Chu is not printed in this 
hearing record but is on file with the Subcommittee and can also be 
accessed at:

      http://docs.house.gov/Committee/Calendar/
      ByEvent.aspx?EventID=104783
    Mr. Franks. All right. Without objection.
    Mr. Deutch.
    Mr. Deutch. Thank you, Mr. Chairman. And thanks for holding 
this hearing. Discrimination based on sex and gender bias are 
huge and pervasive problems. As the father of two daughters, I 
want to work toward a world for them that treats them and their 
brother fairly on the merits of their arguments and their 
actions, rather than with prejudgments or bias. Our biases 
about the proper roles of women are so completely pervasive 
that it feels difficult to even know where to begin.
    And while we see examples of gender bias in real life 
problems, like pay inequality, glass ceilings, the actual 
problem is so much deeper. From the way we react to girls and 
boys differently, to the very language we use to describe 
similar behaviors, these biases are deeply ingrained in our 
culture.
    We even see evidence of this deep seeded bias in the type 
of futures we as parents imagine for our children. And women 
experience this bias every day. Will their appearance be valued 
more than their ideas? Will they be viewed as unprofessional 
for speaking up and for defending their ideas? Will they be 
targeted on social media with threats of violence? Will they be 
able to attend college without fear of sexual assault? And will 
they be heard when they say, ``No?''
    With a problem so pervasive, there is no easy fix. Bringing 
an end to sexism and gender bias requires us to address the 
root cause of inequality. This means investing in preventative 
healthcare programs, science based sex education, economic 
empowerment efforts, and supporting fair housing and employment 
practices. The most obvious symptom of gender bias is the 
continuing pay disparity between men and women in the 
workplace. Two days ago we finally had Equal Pay Day, April 12. 
April 12 represented how far into the year of 2016 women work 
to earn as much pay as men.
    Women are paid 79 cents for every dollar a man is paid, and 
the gap is even worse for women of color. At that rate, when we 
are currently moving toward closing the pay gap, women will 
still be waiting for a dollar to mean a dollar 44 years from 
now. My college age daughters will be approaching their 
retirement. This is the fundamental problem. The ripple effects 
that working families, whose wages have barely budged since the 
1990's, and while pay stays flat costs soar for housing, for 
childcare, for education, just to name a few.
    Unequal pay contributes to broader issues of economic 
inequality and the disappearing middle class. So, it is good. 
It really, really is good to see a bill start off with an 
affirmation of the basic truth that women are a vital part of 
American society and culture, and possess the same fundamental 
human rights and civil rights as men. And I hope that we as a 
Congress can work to live up to the promises underlying that 
basic truth, the promise of education, the promise of access to 
health care, the promise of justice for victims of sexual 
assault, the promise of equal employment opportunities, and the 
promise of finally closing the inexcusable pay gap.
    It is a shame that this Subcommittee's attempt to confront 
the serious issue of sex discrimination and gender bias is 
nothing more than this Committee telling women what they can 
and cannot do with their bodies again. The United States 
Constitution protects a woman's right to make the personal, 
private decision to have an abortion, and pretending that this 
bill is anything other than an attempt to undermine and weaken 
that constitutionally protected right is a farce. And, for that 
reason, I have no questions, and I yield back.
    Mr. Franks. I thank the gentleman. We will take a second 
round here so that you folks have been so kind to stick around 
for a while. You know, I have heard a lot here about types of 
discrimination and gender inequity. And those are all issues 
that I am deeply concerned about. But it occurs to me that if a 
little girl is aborted before she is born, based on the fact 
that she is a little girl rather than a little boy that it then 
becomes impossible to reach any other area of discrimination 
that might have occurred in the life she might have had.
    Sometimes it is good to come back to earth here a little 
bit. We are talking around the issue. And, Ms. Higgins, I 
wonder if you would do us all the favor of saying, specifically 
in fairly simple terms that those of us who are not lawyers can 
understand, what does this bill actually do?
    Ms. Higgins. Thank you, Mr. Chairman. Basically, this 
bill--it does a couple things. First of all, what you said is, 
``The reason we are addressing this sex selective abortion in 
this PRENDA bill, the importance of addressing that, is that it 
is taking a holistic view.'' This is the most lethal form of 
sex discrimination that is practiced globally, and in the 
United States. It has to be addressed.
    Not only am I saying this, but it is something that we have 
seen former Secretary of State Hillary Clinton say, that we as 
the U.S. must lead the way to promote women's rights and 
women's equality, in reference to infanticide and sex selective 
abortions.
    Nobuko Horibe, who is the director of the U.N. Population 
Fund on Asia and Pacific regional office said, ``We have to 
give priority to programs like PRENDA that foster norms''; she 
did not say, ``like PRENDA,'' but that is my statement there; 
``that foster norms in an attitude of zero tolerance for 
discrimination such as prenatal sex selection.''
    Gender equality is at the very heart of each country's 
successful development. Zero tolerance of sex discrimination 
necessarily involves banning the practice of sex selective 
abortion. The government has a compelling interest in 
protecting anyone, whether it is male or female, from any 
instance of sex discrimination. That is a compelling interest.
    And we know that a compelling interest would require that 
the government have an exceedingly persuasive justification to 
survive Constitutional scrutiny. Whereas, in abortion 
jurisprudence, you do not even get to the fundamental rights 
language. But you do in sex selection, because it amounts to 
discrimination. And we see that in the Civil Rights Act.
    The Civil Rights Act was, basically, also applied to 
private individuals who discriminate. So, it is in fact a very 
important government interest. It is a compelling interest. And 
when we say that PRENDA is not necessary, why are we setting--
we are saying it is not necessary here, because we do not have 
that many sex selective abortions. Well, it happens here.
    So, what PRENDA does is eliminate that practice. What we 
are saying is, ``There are no tolerable levels of lethal sex 
discrimination against girls.'' There is no tolerable level, 
whether it is one or 1 million. It is not acceptable. The 14th 
Amendment guarantees everyone equal protection under the law. 
That is a compelling government interest that we must protect. 
We must take a holistic view. And it includes banning sex 
selective abortion. Otherwise, we cannot be a moral authority 
overseas and tell people they cannot do it, if we do.
    So, the second thing PRENDA does, I think, that is 
important is it allows women--and we know there are documented 
instances of women in communities around this country in the 
United States who are coerced into having sex selective 
abortions against their will. So, what PRENDA does, it allows 
that woman an out. It allows them a civil remedy against anyone 
who has coerced them to have an abortion against their will 
based on the reasons of sex selection. So, it empowers women to 
know that the government stands behind them in protecting them 
from this practice.
    So, I think those are the two main things PRENDA does, and 
I think that they are justified under the Constitution.
    Mr. Franks. Thank you, Ms. Higgins. And, Reverend McCoy, I 
will turn to you. You know, I heard again today some concerns 
about the gender pay gap, and I understand that concern. But, 
you know, in this case we are trying to--and essentially 
address a gender survival gap, you know, whether or not these 
children survive or not. And, unfortunately, across the world, 
one of the most lethal phrases that you can imagine anymore is, 
``It is a girl.''
    And I wonder, you know, there was a famous Democrat running 
for president, Mr. Humphrey, that said, you know, that, 
``Society will be judged by how it treats those in the dawn of 
life, those in the shadows of life, and those in the twilight 
of life.'' And you say something along those lines in your 
testimony. ``A Nation will be judged on how they protect the 
most vulnerable of their society.''
    In your opinion, how well have we done that?
    Rev. McCoy. Thank you, Chairman Franks. You know, in my 
opinion, we are living, you know, in a moral crisis. We are 
living in a place where--you know, I am 100 percent at the 
place where many of the other Members already talked about. 
``Hey. We want to make sure that we talk about equal pay. We 
want to make sure that we are taking care of many of the people 
and having these concerns that we are closing the pay equity 
gap, and making sure that we are taking care of women from 
their healthcare needs,'' and an assortment of issues.
    But, to answer your question directly, we are at a place 
where I do not think we have done well in allowing the most 
unprotected to have protections, and that is that child that is 
preborn. That is that child that is in the mother's womb. That 
should not be the most dangerous place for a child.
    Now, interesting enough, many people say, and they talk 
regularly. And I hear this all the time, especially being a 
male, about, ``Well, I am taking away a woman's right.'' And I 
hear that. But I will say this. I so appreciate the right that 
I had to be born. And I do not think any person here would ever 
say that they are mistaking, or they are sorrowful about being 
able to be born, being able to have Constitutional protections 
given to them.
    And I think that is where we are today in saying we need to 
make sure that we are taking care of those that are most 
vulnerable in society, in that they should have those 
protections, and that they should be taken care of; and that is 
the preborn. So, thank you for this legislation.
    Mr. Franks. Thank you Reverend McCoy, and Mr. Deutch.
    Mr. Deutch. Thank you Mr. Chairman. I will yield to Ms. Chu 
for some questions.
    Ms. Chu. Thank you so much, Congressman Deutch, for 
yielding. I am just astounded that this bill would force a 
doctor to make a decision about whether a woman is using sex 
selection or race selection. And, if he makes the wrong choice, 
or she, that doctor would end up potentially serving up to 5 
years in prison. Not only that, that they would have to show 
their suspicion that such a thing could happen. Even if they 
suspect such a thing, they have to report that to the 
authorities.
    So, Ms. Yeung, what kind of effect do you think this 
legislation will have on a woman's relationship with her 
doctor, particularly if she is a woman of color, and how do you 
think this will affect the healthcare outcomes for women?
    Ms. Yeung. Thank you for that question. This has a chilling 
effect on relationships between doctors and patients. I want to 
lift up the testimony submitted by members of the healthcare 
providers who wrote, ``PRENDA is written so broadly that a 
patient's simple comments, 'we hope it is a girl,' could put a 
health professional at risk of incarceration should they not 
report the conversation to law enforcement.''
    I believe, and I have members who have testified, that this 
leads to racial profiling in the office, that they feel judged 
when they walk into the doctor's office. And that is not the 
kind of care that we need. Ultimately, you cannot talk about 
abortion rights without talking about women. And I want to lift 
up that there are women in this room who have chosen to have 
abortions. Women choose to have abortions. And we have to trust 
women in each of their own decisions. Criminalizing doctors 
punishes women. There is no doubt about it.
    Ms. Chu. Now, do you think that there could be some son 
preference in some segments of the Asian American community? 
And is there a more effective way to address these issues 
wherever they remain? And I know that in South Korea there was 
some different kinds of approaches to this that show that the 
answer might possibly not be PRENDA.
    Ms. Yeung. That is right. In the international context, all 
the experts have documented that lifting the status, the 
economic and social status of women and girls addresses the 
root causes of gender inequity, which cause son preference.
    To your first point, I do want to enter record that, you 
know, after the first time we had this conversation in 2011, 
there was research in the Asian American community where we 
polled over 6,000 Asian Americans speaking in 10 different 
Asian languages, that is disaggregatable by top API 
ethnicities.
    And so, to your answer, who prefers sons? About 4 percent 
of Asian Americans overall. Who prefers girls? About 4 percent 
of Asian Americans overall. And who has no preference at all? 
91 percent. And plus or minus 7 is the kind of, you know, range 
in this research.
    The reality is it is a racist stereotype against Asian 
Americans that we have a preference for girls or boys.
    Ms. Chu. And do you think passing legislation that erodes a 
woman's Constitutional right to choose is the most effective 
means of ensuring that women are able to freely and 
independently make the important and deeply personal decision 
about when to start a family?
    Ms. Yeung. No. I mean, again, we have to trust women. Women 
are an important part of this equation that has gotten lost in 
this conversation. You cannot help women by taking her rights 
away, just fundamentally is nonsensical. Instead, I think this 
Committee has so many opportunities to do a lot of work to lift 
up women's rights. Today is the fight for 15. We know that one 
in three Asian American women make less than $15 an hour. That 
would be a significant improvement in a woman's life.
    Ms. Chu. And given the disparities in access to quality 
health care that exists in communities of color and low income 
communities, what steps can Congress do to improve women's 
access to health care? How can Congress support women, 
particularly in low income communities who make decisions 
regarding their health and family planning under economic 
stress?
    Ms. Yeung. Health care access is an enormously important 
issue, and close to my heart. I think culturally competent 
accessible care, including comprehensive reproductive health 
care is a necessity for our communities, and one that women of 
color have always led the fight for. I want to quote a 
statement by the National Political Congress of Black Women in 
1989.
    They said, ``We understand why African American women 
risked their lives then, and why they seek safe legal abortions 
now. It has been a matter of survival. Hunger and homelessness, 
inadequate housing and income to properly provide for 
themselves and their children. Family instability, rape, 
incest, abuse, too young, too old, too sick, too tired, 
emotional, physical, mental, economic, social; the reasons for 
not carrying a pregnancy to term are endless and varied, 
personal, urgent, and private. And for all these pressing 
reasons, African American women, once again, will be among the 
first force to risk their lives if abortion is made illegal.''
    Ms. Chu. Thank you. I yield back.
    Mr. Franks. Mr. Jordan.
    Mr. Jordan. Mr. Chairman, I would yield my time to the 
Chair.
    Mr. Franks. Thank you Mr. Jordan. You know, I think it 
probably is important to remind ourselves what the bill here 
before us really does. It says that, ``In America you cannot 
discriminate against an innocent unborn child by subjecting 
them to an abortion based on their race or sex.'' We protect 
people in employment decisions. We protect people in housing 
decisions. All kinds of things based on race or sex. But when 
we try to protect little babies from being killed on the basis 
of race or sex, rather than that being the center of the 
debate, we get all these other kinds of discussions.
    And I would just suggest to you that, if taking the life of 
a little baby because it is a little girl instead of a little 
boy--if that is not wrong, then I do not know what is wrong. I 
mean, I would be open to hearing suggestions. If deliberately 
targeting a minority community and seeing that community 
devastated as a result--if that is not wrong, then I do not 
what is wrong.
    Sooner or later, this country will have a time of 
reflection because future generations will see this change, 
just as we did in some of the past tragedies. And whatever time 
we spent ourselves will either be judged in the eyes of history 
or the eyes of eternity. And I want to thank all of you for 
coming here. And I would like to ask Ms. Davis if she has a 
final thought.
    Ms. Davis. I do, sir. I am deeply saddened sitting in this 
proceeding today. There is a quote that is attributed to Maya 
Angelou, and it says, ``When someone tells you who they are, 
believe them.'' Planned Parenthood has made very plain that 
they are operating a Negro Project in this country that is 
targeting Black women to lure them into their abortion centers 
in order to control the Black birth rate. This bill is not an 
attack on the woman. It is an opportunity to hold organizations 
like Planned Parenthood accountable for targeting children 
based on the color of their skin, and hold all of the 
abortionists accountable for targeting children based on their 
gender.
    To hear the information being twisted as if this bill is 
somehow attacking a woman and denying her the right to self-
determine her reproductive life is just a travesty. And I pray 
that this Committee and the Congress would take the--why does 
abortion get an exception that no other business, no other 
industry gets? If any other industry showed the kind of data 
that we can find very clearly documented on what Planned 
Parenthood is doing, Black people, White people, would be up in 
arms to shut them down.
    Abortion should not be given a pass to target a woman based 
on the color of their skin as Planned Parenthood has told us 
they are doing. They told us that in the testimony on them 
selling body parts that they are reaching women of color. And 
it is a travesty that anyone elected to office would allow that 
kind of open discrimination against a group of people in this 
country to happen.
    And I pray that before we end up where we were when John 
Lewis got clocked on the head on the Pettus Bridge, and those 
four babies were killed in Birmingham, and Emmitt Till was 
tortured to death because of the color of his skin, that we 
would stop this travesty and stop Planned Parenthood from being 
able to target women of color. Thank you, sir.
    Mr. Franks. Thank you, Ms. Davis.
    Ms. Yeung. May I comment on that?
    Mr. Franks. I am sorry, Ms. Yeung. I did not call on you. 
We are about out of time here. This is my time.
    Ms. Yeung. There are 25 minutes. I would like to make a 
comment, if you would, Chairman.
    Mr. Franks. Ma'am, this is my time. I guess, the real 
question here is does the abortion really kill a little child?
    Ms. Yeung. What is the role of women in this conversation?
    Mr. Franks. If it does not, then I am through talking about 
it. But if it does, then those of us in this room, whether we 
know it or not, are standing in the midst of the greatest human 
genocide in the history of humanity. And history will not only 
reflect that, the posterity----
    Ms. Yeung. Black women are not the genocidal actors. You 
are accusing Black women of murdering their own people.
    Mr. Franks. Somehow the notion of protecting little girls 
because they are not as--somehow, that you think that, somehow, 
that it is okay to take the life of a little girl because she 
is a little girl instead of a little boy. If that is your 
position, I think it speaks for itself.
    And, with that, it concludes today's hearing. Thanks to all 
of our witnesses, and Ms. Yeung, thanks to you for attending.
    Without objection, all Members will have 5 legislative days 
to submit additional written questions for their witnesses, or 
additional materials for the record. And I thank the witnesses, 
and I thank the Members, and I thank the audience. And, with 
that, this hearing is adjourned.
    [Whereupon, at 5:22 p.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

 Addendum to the Prepared Statement of Derek McCoy, Reverend, National 
    Clergy Relations Director, Center of Urban Renewal and Education

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


   Question for the Record submitted to Miriam Yeung, MPA, Executive 
      Director, The National Asian Pacific American Women's Forum*
---------------------------------------------------------------------------
    *Note: The Subcommittee did not receive a response from this 
witness in time for its inclusion in this hearing record.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


          Prepared Statement of Steven M. Mosher, President, 
                     Population Research Institute
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Prepared Statement of the National Asian Pacific American Women's Forum 
                                (NAPAWF)
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
